HHS/OIG, Audit - " Medicare Payments for Services Provided to California
Residents Identified as Incarcerated, " (A-09-02-00050)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Payments for Services Provided To California Residents Identified
as Incarcerated," (A-09-02-00050)
October 9, 2002
Complete Text of Report is available in PDF format
(1.52 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicare fee-for-service
claims paid in California for beneficiaries identified as incarcerated during
the period January 1, 1997 through December 31, 1999 were in compliance with
federal regulations and Centers for Medicare & Medicaid Services (CMS)
guidelines.  California was 1 of 10 states selected for review.  We
audited a random sample of 100 Medicare fee-for-service claims for beneficiaries
identified as incarcerated during the 3-year audit period to determine whether
these payments were appropriate.  We found that our sample of 100 claims
included 58 allowable claims, 12 unallowable claims and 30 claims for which
the allowability of the claim could not be determined.  Medicare paid for
the 12 unallowable claims because the prisoner data from the Social Security
Administration (SSA) was not contained in CMS records, which are used by the
Medicare contractors to process claims.
We have been informed that CMS plans to establish an edit
in the common working file that will deny claims for incarcerated beneficiaries.
Claims meeting the conditions of payment will not be subject to this edit if
the supplier or provider submitting the claim certifies, by using a modifier
or condition code on the claim, that he or she has been instructed by the state
or local government component that the conditions for Medicare payment have
been met.  We recommended that CMS:  (1) make a concerted effort to
educate suppliers and providers on the meaning of the modifier or condition
code and circumstances relating to their proper use, (2) monitor claims with
the modifier or condition code to assure that federal guidelines are met, and
(3) monitor claims to ensure that only commitment codes that meet Medicare criteria
are paid and that uniform collection procedures are enforced.  The CMS
concurred with our findings and recommendations.